P.O. Box 500
Richland, WA 99352
phone: 509.378.3100
fax: 509.378.3435
www.gesa.com

CREDIT LINE ACCOUNT
AGREEMENT AND DISCLOSURE
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL
TRUTH-IN-LENDING DISCLOSURE STATEMENTS, SHARE SECURED VISA PLATINUM, VISA PLATINUM AND
DIAMOND PREMIER/DIAMOND CASH BACK VISA AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS
REGARDING THE USE OF YOUR SHARE SECURED VISA PLATINUM, VISA PLATINUM AND DIAMOND
PREMIER/DIAMOND CASH BACK VISA CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE.
PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

Diamond Premier/Diamond Cash Back VISA _________%
N/A introductory APR
N/A months following the date You establish Your Card.
for the first _____

as low as 12.50
After that, Your APR will be _________%
and will vary with the market
based on the Prime Rate.
N/A months
N/A
VISA Platinum _________%
introductory APR for the first _____
following the date You establish Your Card.

as low as 8.50
After that, Your APR will be _________%
and will vary with the market
based on the Prime Rate.

N/A introductory APR for the first
Share Secured VISA Platinum _________%
N/A
_____ months following the date You establish Your Card.
as low as 8.50
After that, Your APR will be _________%
and will vary with the market
based on the Prime Rate.
Annual Percentage Rate (APR)
For Balance Transfers

N/A introductory APR for the first
Diamond Premier/Diamond Cash Back VISA _________%
N/A months following the date You establish Your Card.
_____
as low as 12.50
After that, Your APR will be _________%
and will vary with the market based on the
Prime Rate.

N/A introductory APR for the first _____
N/A months following the
VISA Platinum _________%
date You establish Your Card.
as low as 8.50
After that, Your APR will be _________%
and will vary with the market based on the
Prime Rate.

N/A
N/A
Share Secured VISA Platinum _________%
introductory APR for the first _____
months following the date You establish Your Card.
as low as 8.50
After that, Your APR will be _________%
and will vary with the market based on the
Prime Rate.

SEE PAGE 2 AND TOP OF PAGE 3 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2009-2016. All Rights Reserved.

Page 1 of 6

OTBS 016 GESA (1/16)

Interest Rate and Interest Charges (continued)
Annual Percentage Rate (APR)
For Cash Advances

N/A introductory APR for the first
Diamond Premier/Diamond Cash Back VISA _________%
N/A months following the date You establish Your Card.
_____
as low as 12.50
After that, Your APR will be _________%
and will vary with the market based on the
Prime Rate.

N/A months following the
N/A introductory APR for the first _____
VISA Platinum _________%
date You establish Your Card.
as low as 8.50
After that, Your APR will be _________%
and will vary with the market based on the
Prime Rate.

N/A
N/A
Share Secured VISA Platinum _________%
introductory APR for the first _____
months following the date You establish Your Card.
as low as 8.50
After that, Your APR will be _________%
and will vary with the market based on the
Prime Rate.
as low as 8.50
Personal Line of Credit _________%

Penalty APR And When it
Applies

18.00%
This APR may be applied to Your VISA Feature Category if:
1) You make a late payment.
How Long Will The Penalty APR Apply? If Your APRs are increased for this
reason, the Penalty APR applied to transactions that occur after the increase may
be applied indefinitely. If the Penalty APR is later applied to transactions that
occurred prior to the effective date of the initial increase (because of a delinquency
in excess of 60 days past due), the subsequent increase will apply unless 6
consecutive payments are received on or before the due date during the six-month
period following such increase.
18.00%
This APR may be applied to Your Personal Line of Credit Feature Category if:
1) You make a late payment.
How Long Will The Penalty APR Apply? If Your APR is increased for this
reason, the Penalty APR may be applied indefinitely.

Paying Interest

For VISA, We will not charge You interest on purchases if You pay Your entire balance
owed each month within 25 days of Your statement closing date. For all Feature
Categories, We will begin charging interest on cash advances and balance transfers on
the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
For Personal Line of Credit, $35.00.

Annual Fee
Transaction Fees

.
.

Overdraft Fee
Foreign Transaction

For Personal Line of Credit, $25.00.
For VISA, 1.00% of each foreign currency transaction in U.S. dollars.
For VISA, 0.80% of each U.S. Dollar transaction that occurs in a foreign country.

SEE PAGE 1 AND TOP OF PAGE 3 for more important information about Your Account
Copyright Oak Tree Business Systems, Inc., 2009-2016. All Rights Reserved.

Page 2 of 6

OTBS 016 GESA (1/16)

Fees (continued)
Penalty Fees

.

Returned Payment

.

Late Payment

Except for VISA, $28.00.
For VISA, up to $28.00.
Except for VISA, the greater of 5.00% of the payment due or $35.00
For VISA, up to $25.00

How We Will Calculate Your Balance: Except VISA, We use a method called "daily balance." For VISA, We use a method
called "average daily balance (including new purchases)." See Your Account Agreement for details.
Loss of Introductory APR: We may end Your introductory APR and apply the penalty APR if Your payments are late.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
SEE PAGE 1 AND 2 for more important information about Your Account

In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean GESA CREDIT UNION. The words "You" and "Your" mean each person accepting this
Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any Share Secured VISA Platinum, VISA Platinum
or Diamond Premier/Diamond Cash Back VISA Credit Card issued to You by Us and any duplicates or renewals. "Convenience Checks" mean the special Account
access devices that We may provide for Your use from time to time.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein
constitute Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic
requests, advance request forms, vouchers, checks, charge slips, Convenience Checks, Debit Cards, ATM Cards, Credit Cards, wire transfers, direct transfers and/or
wire transfers to specific payees identified by You, direct transfers to Your share/share draft or other Credit Union account and the like. Regardless of the means by
which any advance is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent
or implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include Personal Line of Credit (including Overdraft Protection), Share Secured VISA
Platinum, VISA Platinum and Diamond Premier/Diamond Cash Back VISA.

Variable Rate

Feature Category
Index

Margin

Personal Line of Credit

Daily
Periodic
Rate

ANNUAL
PERCENTAGE
RATE

as low as 0.023288
___________%

as low as 8.50
___________%

Share Secured VISA Platinum

3.50
___________

as low as 5.00
___________

as low as 0.023288
___________%

as low as 8.50
___________%

VISA Platinum

3.50
___________

as low as 5.00
___________

as low as 0.023288
___________%

as low as 8.50
___________%

Diamond Premier/Diamond Cash Back
3.50
___________
VISA

as low as 9.00
___________

as low as 0.034247
___________%

as low as 12.50
___________%

ADVANCES. Whenever You request a transaction, We may require You to
prove Your identity. Advances made on Your Account will be processed
according to the instructions You give Us (such as by wire transfer, direct
transfer to Your Credit Union account or by other such means) and You
authorize Us to do this, or We may draw a draft or check made payable to You
and mail it to You. When the amount advanced appears on a subsequent
statement, that will be conclusive evidence of Your advance request unless You
notify Us that You disagree with any such item appearing on Your periodic
statement according to the provision of this Agreement titled "Your Billing Rights:
Keep this Document for Future Use." You understand that whether or not any
specific secured advance request is approved may be determined by how much
equity You have or will have in the shares, certificates and/or Collateral offered
as security.
Each Personal Line of Credit advance must be at least equal to $50.00.
SECURITY. As permitted by law, to secure all transactions under this Agreement
in either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may
enforce Our right to do so without further notice to You. Additionally, You agree
that We may set-off any mutual indebtedness.
You acknowledge that You own any certificates, shares and/or Collateral pledged
as security and that there are no other liens against them other than Ours. You
agree to perform all acts which are necessary to make Our security interest in the
certificates, shares and/or Collateral being pledged enforceable.
OTHER SECURITY. Collateral (other than household goods or any dwelling)
given as security under this Agreement or for any other loan You may have with
Copyright Oak Tree Business Systems, Inc., 2009-2016. All Rights Reserved.

Us will secure all amounts You owe Us now and in the future if that status is
reflected in the "Truth-in-Lending Disclosure" in any particular Agreement
evidencing such debt.
CONSENSUAL LIEN ON SHARES. If You have been issued a Credit Card,
Debit Card or ATM Card You grant and consent to a lien on Your shares
with Us (except for IRA and Keogh accounts) and any dividends due or to
become due to You from Us to the extent You owe on any unpaid Credit
Card balance, and/or Personal Line of Credit balance created through the
use of Your Debit Card or ATM Card.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Share Secured
VISA Platinum Feature Category, You agree to give Us a specific pledge of
shares which will equal Your Credit Limit. In the event that You default on Your
Share Secured VISA Platinum Feature Category, We may apply these shares
toward the repayment of any amount owed on such Feature Category. You may
cancel Your Share Secured VISA Platinum Feature Category at any time by
paying any amounts owed on that Feature Category. To be certain that Your
entire balance and all advances are paid, any shares pledged may not be available
to You for 30 days after You have cancelled and any outstanding balance is paid
in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for
each Feature Category for which You are approved. Unless You are in default,
any Credit Limits established for You will generally be self-replenishing as You
make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You
will pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit
available during any time that any aspect of Your Account is in default.

Page 3 of 6

OTBS 016 GESA (1/16)

JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be mailed only to the primary
Borrower at the address that We have on file for You. We may refuse to follow
any instructions which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the
right to repay at any time without penalty. You also understand that You will only
be charged periodic Finance Charges to the date You repay Your entire balance.
You may make larger payments without penalty. Any partial payment or
prepayment will not delay Your next scheduled payment. All payments to Us
must be in lawful money of the United States. We may apply each payment to
whichever Feature Category We wish. For all Feature Categories (except VISA),
payments will be applied first to any Late Charges owing, then to the Finance
Charge due, then to the outstanding principal balance. As permitted by law, We
may apply VISA payments in the order of Our choosing.
Any unpaid portion of the Finance Charge will be paid by subsequent payments
and will not be added to Your principal balance. You understand that any delay in
the repayment of Your unpaid balance will increase Your periodic Finance
Charges and any acceleration in the repayment of Your unpaid balance will
decrease Your periodic Finance Charges.
Personal Line of Credit Minimum Monthly Payments will be established at the
close of each billing cycle at an amount equal to 3.00% of Your then outstanding
balance, subject to the lesser of $50.00 or Your balance.
Share Secured VISA Platinum, VISA Platinum and Diamond Premier/Diamond
Cash Back VISA Minimum Payments will be an amount equal to 2.00% of Your
new unpaid Share Secured VISA Platinum, VISA Platinum or Diamond
Premier/Diamond Cash Back VISA balance at the end of each billing cycle,
subject to the lesser of $25.00 or Your balance, plus any portion of the Minimum
Payments shown on prior statement(s) which remains unpaid, plus any amount
that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly
to Your share or share draft account.
LATE CHARGE (EXCEPT VISA). If Your payment is 10 or more days late, You
will be charged the greater of $35.00 or 5.00% of the payment due.
OTHER FEES AND CHARGES (EXCEPT VISA). You will be charged the
following fees and charges associated with the use of Your Account: (a) for
Personal Line of Credit, $25.00 for each advance that is triggered by an overdraft
of Your share draft account; (b) for Personal Line of Credit, a $35.00 Annual Fee
that is required each year to continue credit availability whether or not You use
such Feature Category throughout the year; and (c) $28.00 for any check (or
other negotiable instrument used for payment) which is returned unpaid.
FINANCE CHARGES (EXCEPT VISA). A Finance Charge will be assessed on
any unpaid principal balance for each Feature Category of Your Account for the
period such balance is outstanding. Balances change each time advances are
made, payments are made or credits given under any Feature Category. The
Finance Charge begins to accrue on the date of each advance and there is no
grace period.
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT VISA). For all
Feature Categories (except VISA), the Finance Charge is determined by
multiplying Your unpaid balance at the close of each day in the billing cycle being
accounted for by the applicable Daily Periodic Rate. The unpaid balance is the
balance each day after payments, credits, and unpaid Finance Charges to that
balance have been subtracted and any new advances, insurance premiums or
other charges have been added to Your unpaid balance. These daily Finance
Charges are then added together and the sum is the amount of the Finance
Charge owed for the Feature Category being accounted for. The total Finance
Charge You owe on Your Account for each billing cycle is the sum of all the
Finance Charges due for all applicable Feature Categories.
VISA FINANCE CHARGES. In the case of any transactions under Your Share
Secured VISA Platinum, VISA Platinum or Diamond Premier/Diamond Cash
Back VISA Feature Categories, the balances subject to the periodic Finance
Charge are the average daily transactions balances outstanding during the
month (including new transactions). To get the average daily balance, We take
the beginning balance each day, add any new purchases, balance transfers,
cash advances, insurance premiums, debit adjustments or other charges and
subtract any payments, credits and unpaid Finance Charges. This gives Us the
daily balance. Then, We add up all the daily balances for the billing cycle and
divide them by the number of days in the billing cycle. The Finance Charge for a
billing cycle is computed by multiplying the average daily balance subject to
a Finance Charge by the Daily Periodic Rate times the number of days in the
billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from the
later of the date they are posted to Your Account or from the first day of the billing
cycle in which the transaction is posted to Your Account.
Copyright Oak Tree Business Systems, Inc., 2009-2016. All Rights Reserved.

For Diamond Premier/Diamond Cash Back VISA, Your balance is subject to an
introductory discounted Daily Periodic Rate of ________%
(corresponding
N/A
as low as 12.50
ANNUAL PERCENTAGE RATE ________%).
Such introductory rate will remain
N/A consecutive months immediately following the date
in effect for a period of _____
that such Feature Category is established. As permitted by law, following the
expiration of the introductory rate period, Your balances will be subject to the
non-introductory rate.

For VISA Platinum, Your balance is subject to an introductory discounted Daily
Periodic Rate of ________%
N/A (corresponding ANNUAL PERCENTAGE RATE
as low as 8.50
N/A
________%).
Such introductory rate will remain in effect for a period of _____
consecutive months immediately following the date that such Feature Category is
established. As permitted by law, following the expiration of the introductory rate
period, Your balances will be subject to the non-introductory rate.
For Share Secured VISA Platinum, Your balance is subject to an introductory
N/A
discounted Daily Periodic Rate of ________%
(corresponding ANNUAL
as low as 8.50
PERCENTAGE RATE ________%).
Such introductory rate will remain in effect
N/A consecutive months immediately following the date that
for a period of _____
such Feature Category is established. As permitted by law, following the
expiration of the introductory rate period, Your balances will be subject to the
non-introductory rate.
VISA VARIABLE RATE. All VISA advances are subject to a Variable Rate which
is based on the highest Prime Rate as published in the Money Rates Section of
The Wall Street Journal on the day that any introductory rate expires, and
subsequently on the last business day of each month ("Index") plus Our Margin.
The Index plus the Margin equals the Interest Rate. Changes in the Index will
cause changes in the Interest Rate on the day that any introductory rate
expires, and subsequently on the first day of each billing cycle. Increases or
decreases in the Interest Rate will result in like increases or decreases in the
Finance Charge and may affect the number of Your scheduled payments. Your
Interest Rate will never be greater than 18.00% and will apply to Your remaining
principal balance.
DEFAULT ANNUAL PERCENTAGE RATE (EXCEPT VISA). If Your Feature
Category Account is at least 30 days past due twice in any 12-consecutive-month
period or is 60 or more days past due at any time, the Daily Periodic Rate
applicable to Your entire balance existing at that time and in the future for such
Feature Category will immediately increase to 0.049315% (corresponding
ANNUAL PERCENTAGE RATE 18.00%).
VISA PENALTY RATE. If Your VISA Feature Category is 30 but not more than
60 days past due twice during any 12-consecutive-month period or 60 days past
due at any time, subject to applicable law, the Daily Periodic Rate applicable to
future transactions will increase to a fixed periodic rate of 0.049315%
(corresponding ANNUAL PERCENTAGE RATE 18.00%).
If Your VISA Feature Category is more than 60 days past due, subject to
applicable law, the Monthly Periodic Rate applicable to Your entire balance of
transactions existing at that time and in the future will increase to a fixed periodic
rate of 0.049315% (corresponding ANNUAL PERCENTAGE RATE 18.00%).
During the six-month period following the effective date of the increase that
occurred as a result of Your VISA Feature Category being more than 60 days
past due, upon receipt of the first six consecutive required minimum periodic
payments when due, the rate applicable to the balance of transactions that
occurred prior to the initial increase will be returned to the standard rate that
would have otherwise been in effect.
OVERDRAFT PROTECTION. We may transfer funds in multiples of $50.00 for
Your Personal Line of Credit (or in such increments as We may from time to time
determine) to Your share draft account by an advance on Your Personal Line of
Credit Feature Category as is applicable, subject to this provision, to clear any
Overdraft on Your share draft account. Whether or not such transfers occur will
be controlled by this Agreement. In any event, You hold Us harmless for any and
all liability which might otherwise arise if the transfer does not occur. Overdraft
protection automatically ceases if this Agreement is ever cancelled or terminated
or Your Account is in default.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will provide You a statement each month in which
there is a debit or credit balance or when a Finance Charge is imposed. We
need not send You a statement if We feel Your Account is uncollectible or if We
have started collection proceedings against You because You defaulted. EACH
STATEMENT IS DEEMED TO BE A CORRECT STATEMENT OF ACCOUNT
UNLESS YOU ESTABLISH A BILLING ERROR PURSUANT TO THE FEDERAL
TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are
under no obligation to honor Your Convenience Checks if: (1) by paying a
Convenience Check, You would exceed Your Credit Limit; (2) Your Cards or
Convenience Checks have been reported lost or stolen; (3) Your Account has
been cancelled or has expired. If a postdated Convenience Check is paid and, as
a result, any other Convenience Check is returned unpaid, We are not
responsible for any resulting loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have

Page 4 of 6

OTBS 016 GESA (1/16)

with Us; or (b) You should die, become involved in any insolvency, receivership
or custodial proceeding brought by or against You; or (c) You have made a false
or misleading statement in Your credit application and/or in Your representations
to Us while You owe money on Your Account; or (d) A judgment or tax lien
should be filed against You or any attachment or garnishment should be issued
against any of Your property or rights, specifically including anyone starting an
action or proceeding to seize any of Your funds on deposit with Us; and/or (e) We
should, in good faith, believe Your ability to repay Your indebtedness hereunder
is or soon will be impaired, time being of the very essence.

Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.

Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of every Feature Category of Your Account
immediately due and payable, without prior notice or demand.

UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of
the loss, theft, or possible unauthorized use. For VISA Platinum, You may notify
Us by calling (866) 820-4053, whereas for Diamond Premier/Diamond Cash Back
VISA You may notify Us by calling (866) 820-4084. You may also notify Us of the
loss, theft, or possible unauthorized use by writing to Us at Customer Service,
P.O. Box 31112, Tampa, FL 33631-3112. In any case, Your liability will not
exceed $50.00.

COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all
court costs, private process server fees, investigation fees or other costs incurred
in collection and reasonable attorneys' fees incurred in the course of collecting
any amounts owed under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement
if We delay enforcing them. We can accept late payments, partial payments or
any other payments, even if they are marked "paid in full" without losing any of
Our rights under this Agreement. If any provision of this or any related agreement
is determined to be unenforceable or invalid, all other provisions remain in full
force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You
move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal
Truth-In-Lending Act. To the extent permitted by law, the right to change the
terms of this Agreement includes, but is not limited to, the right to change the
periodic rate applicable to Your unpaid balance and/or future advances.
DEBT CANCELLATION COVERAGE. Debt cancellation coverage is not
required for any extension of credit under this Agreement. However, You may
purchase any coverage available through Us and have the costs added to Your
outstanding balance. If You elect to do so, You will be given the necessary
disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," and/or "Credit Line Account Advance
Request and Security Agreement" which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement
and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or
other financial information related to You, at Our request. You also agree
that We may, from time to time, as We deem necessary, make inquiries
pertaining to Your employment, credit standing and financial responsibility in
accordance with applicable laws and regulations. You further agree that We may
give information about the status and payment history of Your Account to
consumer credit reporting agencies, a prospective employer or insurer, or a state
or federal licensing agency having any apparent legitimate business need for
such information.
TERMINATION. Either You or We may cancel Your Account or any particular
Feature Category of Your Account, at any time, whether or not You are in default.
You will, in any case, remain liable to pay any unpaid balances according to the
terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of
the State of Washington except to the extent that such laws are inconsistent with
controlling federal law.
SPECIFIC TERMS APPLICABLE TO YOUR
SHARE SECURED VISA PLATINUM, VISA PLATINUM
AND DIAMOND PREMIER/DIAMOND CASH BACK VISA CREDIT CARDS
USE OF YOUR CARD. You may use Your Card to buy goods and services in
any place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but
not limited to, advances made for the purpose of gambling and/or wagering
where such practices are in violation of applicable state and/or federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at
any time without notice. You agree to surrender Your Card and to discontinue its
use immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Copyright Oak Tree Business Systems, Inc., 2009-2016. All Rights Reserved.

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.

REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others to
accept the Cards or Convenience Checks, or electronic terminals to honor the
Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range
of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives; or (b) the
government-mandated rate in effect for the applicable central processing date.
For transactions that are initiated in a foreign currency, You will be charged
1.00% of the final settlement amount. For transactions occurring in foreign
countries and initiated in U.S. Dollars, You will be charged 0.80% of the final
settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.
LATE CHARGE. Each billing or statement cycle is at least 28 days in duration
and You will be assessed a fee if Your payment is not received by the end of the
billing cycle in which such payment is due. The amount of the fee will equal the
lesser of: (a) the amount of the minimum payment due; or (b) $25.00.
OTHER FEES AND CHARGES. You will be charged the following fees
associated with the use of Your Card: (a) the lesser of $28.00 or the required
minimum payment amount for the returned payment for any check (or other
negotiable instrument used for payment) which is returned unpaid; (b) $5.00 for
each replacement Card You request; and (c) $5.00 for each additional Card You
request for an authorized user of Your Account.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
cards or Convenience Checks, You will immediately call Us or write to Us. For
VISA Platinum, You may call us at (866) 820-4053, whereas for Diamond
Premier/Diamond Cash Back VISA You may call Us at (866) 820-4084. You may
also write to Us at Customer Service, P.O. Box 31112, Tampa, FL 33631-3112.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your Share
Account after six months.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Customer
Service, P.O. Box 31112, Tampa, FL 33631-3112. In Your letter, give us the
following information:

.
.
.

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

You must contact Us:

.
.

Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if
You want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You
do We are not required to investigate any potential errors and You may have to
pay the amount in question.

Page 5 of 6

OTBS 016 GESA (1/16)

What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1) Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.
While We investigate whether or not there has been an error:

.
.
.
.

We cannot try to collect the amount in question, or report You as
delinquent on that amount.
The charge in question may remain on Your statement, and We may
continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible
for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:

.
.

If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may then
report You as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write
to Us within 10 days telling Us that You still refuse to pay. If You do so, We

Copyright Oak Tree Business Systems, Inc., 2009-2016. All Rights Reserved.

cannot report You as delinquent without also reporting that You are questioning
Your bill. We must tell You the name of anyone to whom we reported You as
delinquent, and We must let those organizations know when the matter has been
settled between Us. If We do not follow all of the rules above, You do not have to
pay the first $50.00 of the amount You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more
than $50.00. (Note: Neither of these are necessary if Your purchase was
based on an advertisement We mailed to You, or if We own the company that
sold You the goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 6 of 6

OTBS 016 GESA (1/16)

